PROOF OF SERVICE
No. 20Jason Edward Rheinstein
Petitioner
v.
Attorney Grievance Comm’n. of Maryland,
Respondent

I hereby declare and affirm that:
On this 27th day of July, 2019, a copy of the Petition for Writ of
Certiorari to the Court of Appeals of Maryland was served on all parties
required to be served, by sending, via electronic mail, pursuant to a
mutual electronic service agreement, entered into between the parties
on July 23, 2020, a true and correct copy of the same, to the following
person:
Michele J. McDonald
Assistant Attorney General
Office of the Maryland Attorney General
200 St. Paul Place, 20th Floor
Baltimore, MD 21202
Attorney for Respondent
and by emailing a copy of same to mmcdonald@oag.state.nyd.us.

^son~Edward Rheinstein
Petitioner

Additional material
from this filing is
available in the
Clerk's Office.

